No.

IN THE SUPREME COURT OF THE UNITED STATES

Lara Bush-Pensy. Petitioner
v.

Timothy Pflieger. Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO THE
WISCONSIN COURT OF APPEALS

CERTIFICATE OF SERVICE

I, Timothy A. Provis. a member of the Bar of this Court, certify that on August
10, 2020 a copy of the Petition for Writ of Certiorari and a copy of this Certificate, were
mailed first-class, postage prepaid, to: Attorney Grant A. Erickson. counsel for

respondent Pflieger at P.O. Box 587. Sturgeon Bay. WI 54235. I further certify all
parties required to be served have been served.

Timothy A. Provis
123 East Beutel Road

Port Washington, WI 53074
(414)339-4458
Counsel of Record for Petitioner
BUSFI-PENSY

